No. 20-28
INTHE

$upreme QI:ourt of tbe mlniteb $tateg
PRICEWATERHOUSECOOPERS LLP,
THE RETIREMENT BENEFIT ACCUMULATION PLAN
FOR EMPLOYEES OF PRICEWATERHOUSECOOPERS LLP,
AND THE ADMINISTRATIVE COMMITTEE TO THE

RETIREMENT BENEFIT ACCUMULATION PLAN FOR

EMPLOYEES OF PRICEWATERHOUSECOOPERS LLP,

Petitioners,
V.

TIMOTHY D. LAURENT AND SMEETA SHARON,
ON BEHALF OF THEMSELVES AND ALL OTHERS
SIMILARLY SITUATED,

Respondents.

CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 7th day of June, 2021, I caused three copies of the Supplemental Brief for
Petitioners to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Leon Dayan
BREDHOFF & KAISER, P.L.L.C.
805 15th Street, N.W., Suite 1000
Washington, D.C. 20005
(202) 842-2600
ldayan@bredhoff.com

Counsel for Respondents

Elizabeth B. Prelogar
Acting Solicitor General
UNITED STATES DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

~k.:d

Counsel for United States

,,.,
'

